   June 16, 2004




Human Capital
Management of Marine Corps
Enlisted Personnel Assignments in
Support of Operation Iraqi Freedom
(D-2004-086)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies
  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of Audit Followup and Technical
  Support at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

ASR                   Authorized Strength Report
CMC                   Commandant of the Marine Corps
IRR                   Individual Ready Reserve
M&RA                  Manpower and Reserve Affairs
MARCENT               U.S. Marine Corps Forces, Central Command
MARFORPAC             U.S. Marine Corps Forces, Pacific
MEF                   Marine Expeditionary Force
MOS                   Military Occupational Specialty
OIF                   Operation Iraqi Freedom
T/O                   Table of Organization
USCENTCOM             U.S. Central Command
              Office of the Inspector General of the Department of Defense
Report No. D-2004-086                                                                        June 16, 2004
      (Project No. D2003LA-0151)

                  Management of Marine Corps Enlisted Personnel
                 Assignments in Support of Operation Iraqi Freedom

                                         Executive Summary

Who Should Read This Report and Why? DoD civilian and military personnel who
are responsible for the management of military personnel should read this report. The
report discusses how standard operating procedures would help reduce confusion about
personnel staffing levels at headquarters level and at the warfighting level, as well as help
improve optimization of personnel staffing levels.

Background. I Marine Expeditionary Force, as one of the Marine Corps’ warfighting
commands, deploys in response to component commander taskings to conduct small-
scale contingencies within joint operations. This report addresses Marine Corps enlisted
personnel staffing requirements and personnel staffing levels of selected I Marine
Expeditionary Force infantry and non-infantry battalions, which deployed in support of
Operation Iraqi Freedom between January and February 2003.

Marine Corps battalions’ enlisted personnel staffing levels were below the 100 percent of
their table of organization1 requirement. In addition, 1st Marine Division officials stated
that in the months just before deploying, they were unable to retain key personnel who
had orders to special duty assignments, such as recruiting duty and drill instructor duty
and other taskings from higher headquarters. Headquarters Marine Corps also did not
approve the filling of I Marine Expeditionary Force’s 453 contingency coded billets,2
which required I Marine Expeditionary Force’s headquarters staffs to conduct 24-hour
operations under wartime conditions.

Results. According to Marine Corps officials, Marine Corps battalions that deployed in
support of Operation Iraqi Freedom successfully completed their mission; however, they
did so with vacant enlisted warfighting positions. Specifically, three infantry battalions,
a light armored reconnaissance battalion, and an artillery battalion reported personnel
staffing levels just before deployment of 93 percent, 83 percent, 75 percent, 84 percent,
and 87 percent, respectively, of their table of organization. The Marine Corps did not
have formal standard operating procedures to deploy in support of combatant
commanders’ warfighting missions; did not fully and timely implement its mobilization
management plan; and had not developed a formal management control plan. As a result,
Marines faced higher risks during deployments due to increased demands placed on
limited personnel resources. Developing and implementing standard operating
procedures for units deploying in support of combatant commanders’ warfighting

1
    A table of organization describes the Marine Corps organizational manpower requirements in terms of
    grade and military occupational specialty.
2
    Contingency coded billets are those billets filled under wartime conditions and are included in the Marine
    Corps’ overall structure for readiness and operational purposes.
missions; modifying the current mobilization plan; and developing a formal management
control plan will help optimize personnel staffing levels during future deployments and
will correct the weakness identified in this report. See the Finding section for the
detailed recommendations.

Management Comments and Audit Response. The Marine Corps concurred with the
intent of the recommendation to modify the current mobilization plan to include
additional procedures, other than activating the Individual Ready Reserve, for increasing
personnel staffing levels when deploying in support of combatant commanders’
warfighting missions. The Marine Corps did not concur with the recommendations to
develop and implement standard operating procedures for units deploying in support of
combatant commanders’ warfighting missions and to develop and implement a formal
management control plan for planning, directing, coordinating, and supervising active
forces.

The Marine Corps stated that standard operating procedures were successfully followed
to the extent possible. We do not believe that the Marine Corps has standard operating
procedures that address manpower issues for deployment in support of combatant
commanders’ warfighting missions or a formal management control plan that identifies
the management of personnel in deploying units as an assessable unit.

We request that the Director, Manpower Personnel Plans and Policies Division in the
Office of the Deputy Commandant of the Marine Corps for Manpower and Reserve
Affairs provide additional comments on the final report by August 16, 2004. See the
Finding section of the report for a discussion of management comments and the
Management Comments section of the report for the complete text of the comments.




                                            ii
Table of Contents

Executive Summary                                                   i

Background                                                          1

Objectives                                                          3

Finding
     Staffing of Warfighting Positions                              4

Appendixes
     A. Scope and Methodology                                      14
         Management Control Program Review                         15
     B. Management Comments on the Finding and Audit Response      16
     C. Report Distribution                                        18

Management Comments
     Marine Corps Manpower Personnel Plans and Policies Division   21
Background
           Marine Corps Manpower System. The objective of the Marine Corps
           manpower system is to “provide the appropriate number of trained and
           experienced Marines to commanders to perform their missions.”

                   Manning Process. In order to accomplish its mission, the Marine Corps
           prioritizes requirements and allocates resources. Through the manning process,
           the Marine Corps determines which table of organization (T/O) structure billets,
           or personnel positions, it requires and, therefore, plans to buy with its available
           budget. The “buy” terminology is used to refer to the number of billets, or
           personnel positions, the Marine Corps budget will be able to sustain. A T/O
           describes the Marine Corps organizational manpower requirements in terms of
           grade and military occupational specialty (MOS).1 Once the Marine Corps has
           determined which billets it requires and will buy, an authorized strength
           report (ASR) is produced. The Personnel Management Division, Marine Corps
           Manpower and Reserve Affairs (M&RA), then begins the staffing process using
           the ASR.

                    Staffing Process. The Personnel Management Division then distributes
           the current assignable inventory, or actual available Marines, by applying a
           computerized staffing goal model to match the billets on the ASR from the
           assignable inventory. Applying the computerized staffing goal model revises the
           billets intended to be staffed based on the available inventory.

           Assignable inventory comprises Marine Corps personnel who are available for
           active duty assignment. Marine Corps personnel who are patients, prisoners,
           trainees, and transients, better known as “P2T2,” reduce the assignable inventory.
           However, DoD Instruction 1120.11, “Programming and Accounting for Active
           Military Manpower,” April 9, 1981, states that P2T2 is reported as part of the
           active, and available, military end strength, specifically stating that the following
           personnel will be reported as part of the active military end strength of the
           Marine Corps:
                    •    patients hospitalized more than 30 days,

                    •    prisoners incarcerated more than 30 days but less than 6 months,

                    •    trainees in entry level accession or in training in excess of 20 weeks,
                         and

                    •    transients who are in a permanent change of station status.

           Marine Corps Requirements and Personnel. The Marine Corps is organized as
           a general purpose “force in readiness” to support national needs. The
           Marine Corps is divided into four broad categories: operating forces; the Marine
           Corps Reserve; the supporting establishment; and Headquarters, U.S. Marine

1
    A military occupational specialty is a code used by the Marine Corps to describe a group of related duties
    and is used to identify skill requirements.



                                                       1
          Corps. In FY 2003, the Marine Corps end strength, excluding the Reserves, was
          156,520 enlisted personnel and 18,118 officers, for a total of 174,638 active
          personnel. That same year, the Marine Corps P2T2 was determined to be
          29,564 personnel, giving the Marine Corps a net total of 145,074 active, and
          available, personnel. However, in FY 2003, the Marine Corps determined that it
          needed to fill 153,772 billets to accomplish the Marine Corps mission. Therefore,
          the Marine Corps was unable to staff 8,698 required billets.

          U.S. Central Command. For Operation Iraqi Freedom (OIF), the Marine Corps
          received its mission from the U.S. Central Command (USCENTCOM).
          USCENTCOM is one of nine combatant commands.2 A combatant command
          is composed of significant assigned components of two or more Military
          Departments and has a broad continuing mission under a single commander.
          USCENTCOM is composed of components from the Army, the Navy, the
          Air Force, the Marine Corps, and U.S. Special Operations Command. The
          USCENTCOM area of responsibility includes 25 nations and extends from the
          Horn of Africa to Central Asia. The Marine Corps component that serves
          USCENTCOM is the U.S. Marine Corps Forces, Central Command (MARCENT).

          U.S. Marine Forces, Central Command. MARCENT is one of the
          five Marine Corps components;3 however, only two Marine Corps components
          have permanently assigned forces: U.S. Marine Corps Forces, Atlantic and
          U.S. Marine Corps Forces, Pacific (MARFORPAC). The Commander,
          MARFORPAC is also the Commander, MARCENT. I Marine Expeditionary
          Force (MEF) is a subordinate unit of MARFORPAC.

          I Marine Expeditionary Force. I MEF, headquartered at Camp Pendleton,
          California, is one of the Marine Corps’ warfighting commands and, as such,
          deploys in response to combatant commander taskings to conduct small-scale
          contingencies within joint operations. I MEF provided the main Marine Corps
          effort in support of OIF. I MEF includes the command element and one active
          duty Marine division, known as the 1st Marine Division. The units we
          visited⎯three infantry regiments and one battalion from each regiment, a light
          armored reconnaissance battalion, and the artillery regiment and one of its
          battalions⎯are part of the 1st Marine Division.

                  Infantry. The primary mission of the infantry regiment is to locate and
          destroy the enemy or to repel an enemy assault. I MEF’s infantry regiments
          consist of a headquarters company and four infantry battalions. The infantry
          battalions are the tactical force with which the regiment accomplishes its mission.
          An infantry battalion consists of a headquarters and service company, a weapons
          company, and three rifle companies. For FY 2003, an infantry battalion’s T/O
          identified a requirement for 45 officers and 843 enlisted personnel, for a total of
          888 personnel.

2
    The nine combatant commands are U.S. Northern Command, U.S. Southern Command, U.S. Joint Forces
    Command, U.S. Pacific Command, U.S. European Command, U.S. Central Command,
    U.S. Transportation Command, U.S. Special Operations Command, and U.S. Strategic Command.
3
    The five Marine Corps components are Marine Corps Forces, Atlantic; Marine Corps Forces, Pacific;
    Marine Corps Forces, Europe; Marine Corps Forces, South Command; and Marine Corps Forces, Central
    Command.



                                                   2
                   Light Armored Reconnaissance. A light armored reconnaissance
           battalion’s mission is to conduct reconnaissance, security, and economy of force4
           operations for the ground combat element. Each light armored reconnaissance
           battalion has the ability to deploy as its own unit or as part of a ground combat
           element. I MEF’s light armored reconnaissance battalion consists of a
           headquarters and services company and four light armored reconnaissance
           companies. For FY 2003, a light armored reconnaissance battalion’s T/O
           identified a requirement for 44 officers and 868 enlisted personnel, for a total of
           912 personnel.

                    Artillery. The artillery regiment is the primary source of fire support for
           a Marine division, and the artillery battalion is the basic tactical unit of the
           artillery. I MEF’s artillery regiment consists of four artillery battalions. The
           mission of the artillery regiment is to provide close and continuous fire support by
           neutralizing, destroying, or suppressing targets that threaten the success of the
           supported Marine division. To be responsive to rapidly changing tactical
           situations, an artillery regiment’s operations and actions are closely coordinated
           with those of the infantry. An artillery battalion consists of a headquarters battery
           and three firing batteries. For FY 2003, an artillery battalion’s T/O identified a
           requirement for 47 officers and 577 enlisted personnel, for a total of
           624 personnel.


Objectives
           Our overall audit objective was to evaluate the Services’ management of the
           assignment process for military personnel. Specifically, the audit was to evaluate
           whether the assignment process for officers and enlisted personnel was managed
           to minimize the amount of time essential warfighting positions were vacant, to
           ensure that qualified personnel were assigned to those positions, and to ensure
           that training requirements to fully perform the duties of those positions were
           being met. In addition, we were to evaluate how vacant essential warfighting
           positions impacted the readiness of deployed forces. We also were to review the
           management control program as it related to the overall objective.

           This report addresses the personnel management process for Marine Corps
           battalions that deployed in support of OIF with vacant enlisted warfighting
           positions, and how the vacant enlisted warfighting positions impacted the
           readiness of deployed forces. We also reviewed the management control program
           as it related to those objectives. Because enlisted warfighting positions remained
           vacant during deployment, the audit objectives to determine whether qualified
           and trained personnel were assigned to those positions became moot. This report
           does not address officer assignments. Initial audit work did not identify areas of
           concern warranting additional audit verification. See Appendix A for a
           discussion of the scope and methodology and our review of the management
           control program.

4
    Marine Corps Warfighting Publication 3-1, “Ground Combat Operations,” April 4, 1995, defines
    economy of force as “the commander allocat[ing] the minimum essential combat power to exert pressure
    in secondary efforts and concentrat[ing] his greatest strength at the decisive point.”



                                                     3
           Staffing of Warfighting Positions
           According to Marine Corps officials, Marine Corps battalions that
           deployed in support of OIF successfully completed their mission;
           however, they did so with vacant enlisted warfighting positions.
           Specifically, staffing levels below 100 percent of T/O were reported just
           before deployment by three infantry battalions (93 percent, 83 percent,
           and 75 percent), one light armored reconnaissance battalion (84 percent),
           and one artillery battalion (87 percent). Enlisted warfighting positions
           remained vacant because M&RA:

                  •   did not have formal standard operating procedures for
                      deployment in support of combatant commanders’ warfighting
                      missions,

                  •   did not fully and timely implement its mobilization
                      management plan, and

                  •   had not developed a formal management control plan.

           As a result, Marines faced higher risks during deployments in support of
           OIF due to increased demands placed on limited personnel resources.


Marine Corps Guidance
    M&RA and Marine Corps Plans, Policies, and Operations have developed
    policies, procedures, and plans to implement Commandant of the Marine Corps
    (CMC) policies and decisions regarding manpower and deployment matters.

    Unit Deployment Program Procedures. Marine Corps Order P3000.15B,
    “Manpower Unit Deployment Program Standing Operating Procedures,”
    October 11, 2001, establishes manpower policies and procedures for scheduled
    deployments of units in connection with the Unit Deployment Program. The
    Order stabilizes personnel by reducing personnel assignments into and out of a
    deploying unit to allow the commander the opportunity to prepare the unit for
    deployment. The Order also states that manpower planners will use deployment
    staffing (status) reports to identify staffing shortages within a deployment-
    designated unit. The Order further states that the important difference for the
    deploying unit is that non-deployable personnel must be replaced.

    Manning and Staffing Levels. M&RA officials stated that because assignable
    inventory never matches requirements, the CMC established a staffing precedence
    to accommodate operational needs, CMC policy, and the mismatch between
    assignable inventory and requirements. Marine Corps Order 5320.12D,
    “Precedence Levels for Manning and Staffing,” May 23, 2001, establishes policy
    directing how manpower resources will be allocated and distributed and sets
    precedence levels for manning and staffing. The Order states that excepted
    commands, which include the Marine Corps Recruiting Command and the Marine
    Security Guard Battalion, will be manned and staffed at 100 percent of their T/O


                                        4
     by grade and MOS. Priority commands, which include the I MEF command
     element and infantry battalions, are to have a staffing level of 95 percent of
     their T/O. Proportionate share commands (Pro Share), which include light
     armored reconnaissance and artillery battalions, are to receive fair share
     apportioned staffing of the remaining assignable inventory, thereby also
     absorbing the shortages of assignable inventory.

     Mobilization Management Plan. The Marine Corps Mobilization Management
     Plan (the Plan), February 17, 1999, sets forth policies, procedures, guidance, and
     responsibilities for mobilization of the Marine Corps. The Plan states,
     “Mobilization provides a means for quickly increasing active force levels,
     whether in response to an immediate threat to national security or to keep pace
     with resurgent global threat.” According to M&RA officials, the Plan is the
     Marine Corps’ method of transitioning unit personnel strengths from peacetime
     staffing levels to contingency staffing levels. The Plan, however, does not specify
     staffing levels that deploying battalions should reach.

     Management Control Program. Marine Corps Order 5200.24C, “Marine Corps
     Internal Management Control Program,” July 15, 1998, states that managers will
     incorporate basic internal management controls in the strategies, plans, guidance,
     and procedures governing all of their programs and operations. The Order further
     states that a management control plan, which indicates the number of scheduled
     and accomplished management control evaluations and identifies assessable units,
     progress toward accomplishment of annual program requirements, the method of
     monitoring and evaluation, and the date the evaluation was completed, should be
     in written format. The Order also requires documentation of management control
     activities to the extent needed to effectively manage operations. The mandated
     documentation should show the type and scope of the review, the responsible
     official, important dates and facts, the key findings, and the recommended
     corrective actions.


Warfighting Positions
     According to Marine Corps officials, I MEF battalions located at Camp Pendleton
     and Twentynine Palms, California, that had been deployed in support of OIF
     successfully completed their mission; however, they did so with vacant enlisted
     warfighting positions. The Marine Corps staffing precedence policy identifies
     infantry battalions as priority commands, which are to receive a staffing level of
     95 percent of their T/O. However, personnel staffing levels just before
     deployment did not always reach 95 percent of the T/O. Battalion personnel
     stated that shortages included key positions, such as infantry squad leader and
     platoon sergeant. In addition, non-deployable personnel who were unable to
     deploy due to medical or legal reasons further reduced the number of personnel
     that deployed with the battalions.

     To determine staffing levels of enlisted warfighting positions, we visited
     three infantry battalions, one light armored reconnaissance battalion, and
     one artillery battalion that had been deployed in support of OIF. The following



                                          5
table shows battalion staffing levels in December 2002; the battalions deployed
during January and February 2003.


             Enlisted Personnel Staffing Levels Before Deployment

                                               Personnel
                             T/O               On Board        Percentage of T/O

Infantry Battalion           843                  783                  93
1

Infantry Battalion           843                  696                  83
2

Infantry Battalion           843                  630                  75
3

Light Armored                843                  709                  84
Reconnaissance
Battalion

Artillery Battalion          577                  503                  87



        Infantry Battalion Personnel Staffing Levels. M&RA normally tracks
the personnel strengths of infantry battalions by monitoring the deployment status
reports for battalions participating in regularly scheduled deployments under the
Marine Corps Unit Deployment Program. The deployment status reports identify
personnel strength by MOS. Specifically, a deployment status report identifies
the battalion’s computerized staffing goal, personnel on board, and
non-deployable personnel. We determined the pre-deployment personnel staffing
levels for the three infantry battalions visited by reviewing deployment status
reports submitted to M&RA for December 2002. All three infantry battalions
were scheduled to deploy between January and February 2003.

        The December 2002 deployment status reports of the three infantry
battalions reported having enlisted personnel staffing levels below 95 percent of
their T/O. The infantry battalions reported enlisted personnel staffing levels of
93 percent, 83 percent, and 75 percent, respectively, of their T/O. The reports
noted a goal of 90 percent of T/O, which M&RA officials stated was the goal for
the infantry battalions based on the available inventory determined by the
computerized staffing goal model. Marine Corps Order 5320.12D sets the goal at
95 percent of T/O.

        Non-Infantry Battalion Personnel Staffing Levels. Battalions other
than infantry are not required to submit deployment status reports to M&RA. The
light armored reconnaissance battalion and the artillery battalion are considered
Pro Share, meaning they receive an apportioned share of the remaining assignable
inventory. The light armored reconnaissance battalion and artillery battalion that

                                    6
we visited also deployed between January and February 2003. Because those
battalions were not required to submit deployment status reports, we determined
pre-deployment personnel staffing levels from other documentation (monitor
trips) provided by M&RA officials. M&RA officials stated that monitor trips pull
personnel data out of the Marine Corps Total Force System Data Base, which is
the repository for all Marine Corps personnel data. M&RA officials also stated
that they use the monitor trips to compare a battalion’s T/O to its on board
strength, which allows them to make necessary adjustments within the battalion.
However, the monitor trips that we reviewed did not include the level of detail
found in the deployment status reports, such as the on-board strength by MOS and
the number of non-deployable personnel.

        For FY 2003, T/O was 843 enlisted personnel for the light armored
reconnaissance battalion and 577 enlisted personnel for the artillery battalion. In
January 2003, the light armored reconnaissance battalion reported 709 enlisted
personnel, which was 84 percent of its T/O. In January 2003, the artillery
battalion reported having 503 enlisted personnel, which was 87 percent of its T/O.
As part of the main effort deploying in support of OIF, additional priority should
have been given to those battalions in order to increase personnel staffing levels
closer to their T/O.

Key Personnel Status. In addition to not meeting personnel staffing
requirements, 1st Marine Division officials stated that in the months just before
deploying in support of OIF, they were unable to retain key personnel who had
orders to other duty assignments. Because battalions spend months training
together in preparation for combat in order to reach a standard of combat
readiness, loss of key personnel just before deployment for actual combat
degraded unit combat readiness. According to Marine Corps Reference
Publication 3-0A, “Unit Training Management Guide,” November 25, 1996,
“combat-ready units are manned with motivated, disciplined, and proficient
Marines; led by tactically and technically competent leaders; and conditioned
through physically tough and mentally demanding training that ranges from
individual Marine battle drills to joint combined-arms exercises.” The readiness
status of some companies within the battalions was degraded due to the loss of
trained and proficient Marines who had trained with the battalions over the past
2 years and were reassigned just before deployment for actual combat.
        Special Duty Assignments. Battalions of the 1st Marine Division lost
key personnel to special duty assignments, such as recruiting duty and drill
instructor duty. In December 2002, 214 enlisted personnel who held leadership
positions in the 1st Marine Division’s battalions had orders to special duty
assignments. Those duty assignments would have removed the most critical
leaders at the lowest level of the Marine Corps combat element—the squad
leader (E5) and the platoon sergeant (E6). Squad leaders are the primary trainers
of young enlisted Marines and directly supervise and instruct them on combat
operations. Platoon sergeants are second in command of the platoon and are
accountable for the leadership, discipline, training, and welfare of all the enlisted
members of the platoon. Platoon sergeants coordinate the platoon’s maintenance
and logistical requirements and handle personal needs of individual Marines. In
order to maintain cohesion and keep those essential leaders in place, the
Commander, 1st Marine Division had to justify requests for retention for all


                                      7
     214 personnel. Even after that massive effort, the 1st Marine Division still lost
     38 key leaders to special duty assignments.

             Taskings. The 1st Marine Division’s battalions lost key personnel up
     until the battalions’ deployment dates through continual tasking of personnel to
     augment higher headquarters. According to 1st Marine Division officials, key
     personnel, primarily staff personnel, were tasked to fill approximately 162 billets
     at higher headquarters, such as I MEF, USCENTCOM, and MARCENT. That in
     turn forced the 1st Marine Division to replace those personnel with non-trained
     individuals, which ultimately hurt the continuity and overall combat readiness of
     the 1st Marine Division. According to Marine Corps Doctrinal Publication 1,
     “Warfighting,” June 20, 1997, “the personnel management system should seek to
     achieve personnel stability within units and staffs as a means of fostering
     cohesion, teamwork, and implicit understanding.” The continual tasking of
     personnel from battalions that were preparing for deployment reduced the
     readiness and the cohesion of those units.

              Contingency Coded Billets. Headquarters Marine Corps did not approve
     the filling of I MEF’s 453 contingency coded billets on its T/O. Contingency
     coded billets are those billets that are filled under wartime conditions. They are
     included in the Marine Corps’ overall structure for readiness and operational
     purposes. Those billets would enable I MEF’s headquarters staffs to conduct
     24-hour operations. The additional personnel are critical to ensure continuity of
     operations. Because I MEF could not fill its contingency coded billets, those
     warfighting positions also remained vacant when I MEF deployed in support of
     OIF, which required I MEF headquarters staffs to work longer shifts in order to
     conduct 24-hour operations under wartime conditions.


Staffing Procedures
     Enlisted warfighting positions remained vacant because the Marine Corps did not
     have formal standard operating procedures for deployment in support of
     combatant commanders’ warfighting missions; did not fully and timely
     implement its mobilization management plan; and had not developed a formal
     management control plan.

     Deployment Procedures. The Marine Corps did not have formal standard
     operating procedures for deployment in support of combatant commanders’
     warfighting missions. M&RA is responsible for formulating Marine Corps force
     manpower plans, policies, and procedures, which implement the CMC’s policies
     and decisions. M&RA had standard operating procedures that addressed
     manpower issues for regularly scheduled deployments. However, M&RA did not
     have standard operating procedures that addressed manpower issues for
     deployment in support of combatant commanders’ warfighting missions;
     specifically, M&RA did not have standards for staffing levels of deploying
     personnel.

            Deployment Personnel Staffing Levels. M&RA did not have formal
     standards for deployment personnel staffing levels. The Marine Corps


                                          8
Strategy 21, November 3, 2000, states, “As the premier expeditionary ‘Total
Force in Readiness,’ the Marine Corps will be tailored to answer the Nation’s call
at home, or abroad.” However, M&RA experienced challenges in staffing the
Marine Corps’ highly deployable combat battalions while preparing for
deployment in support of OIF. The lack of established deployment personnel
staffing levels hindered the deployment process and caused confusion in
deploying battalions. During the deployment for OIF, there was confusion as to
what staffing level each battalion was to obtain. MARCENT officials stated that
M&RA had not established a definitive deployment staffing level. In order to
complete its planning process, I MEF requested a deployment staffing level from
M&RA through MARCENT. An official deployment staffing level did not reach
the battalions until November 2002, which was late in the deployment process,
and I MEF was required to revalidate requirements already identified on its T/O.

        Validating Requirements. I MEF evaluated its operating strength to
determine the number of deployable and non-deployable personnel, and identified
personnel shortages. I MEF officials stated that they spent many hours validating
personnel requests to M&RA for requirements already identified on the T/O and
approved through the normal manning process. Each I MEF battalion prioritized
its personnel shortages into three categories: critical, significant, and routine.
After shortages were prioritized, I MEF concluded that approximately
5,000 additional personnel were needed in order to deploy at the proper
“go-to-war” strength of 100 percent of T/O. I MEF personnel in command
positions were under the assumption that they should deploy at 100 percent of
T/O because operating force battalions were modeled on operational capabilities
for warfighting requirements, which are based on 100 percent staffing of T/Os.
For the 5,000 identified personnel shortages, I MEF attempted to fill them by
using internal personnel assets. I MEF then sent requests for individual
augmentees to MARCENT to address the personnel shortages it was not able to
fill.

         Filling Requirements. MARCENT first searched within its own
command for personnel to fill the shortages. When that search did not fill all of
I MEF’s shortages, MARCENT forwarded the remainder of the personnel
shortages to M&RA. MARCENT also eliminated two of the categories I MEF
had used to prioritize the shortages: significant and routine. MARCENT divided
the third category, critical, into three prioritized subgroups and M&RA
concentrated on filling those three subgroups. MARCENT emphasized that all
Marine Corps component command elements were involved in the process for
filling personnel shortages because M&RA used a “global-sourcing” technique
that requires Marines to support a deployment regardless of prior or current
assignment. However, not all personnel shortages in the critical category were
filled in those battalions deploying in support of OIF.

Mobilization Management Plan. The Marine Corps did not fully and timely
implement its mobilization management plan. The Marine Corps’ mobilization
management plan states that the Marine Corps mobilizes in order to augment and
reinforce the active force, replace casualties, and sustain forces during a crisis.
The mobilization management plan includes the movement and processing of
mobilized Individual Ready Reserve (IRR) to increase its manpower resource
pool. IRR is a portion of the pre-trained individual manpower pool, which is used


                                     9
to fill critical time- and skill-sensitive billets. However, M&RA officials stated
that they felt that involuntarily activation of the IRR was not an option available
to them.

Use of Individual Ready Reserve. M&RA officials stated that the Under
Secretary of Defense for Personnel and Readiness issued guidance that strongly
suggested that involuntary activation of the IRR was discouraged. Under
Secretary of Defense for Personnel and Readiness memorandum, “Addendum to
Mobilization/Demobilization Personnel and Pay Policy for Reserve Component
Members Ordered to Active Duty in Response to the World Trade Center and
Pentagon Attacks,” July 19, 2002, provided guidance for managing Reserve
component members identified for mobilization. The memorandum states,
“Emphasis shall be placed on the use of Selected Reserve units and individuals,
and volunteers of any category of the Ready Reserve, prior to involuntarily
calling members of the IRR or ING [Individual National Guard] to active duty,
with the caveat that critical mission requirements are the paramount
consideration.”

M&RA officials stated that 2,063 Marines in the IRR were involuntarily activated
between January and February 2003 in support of OIF. M&RA officials also
stated that even though they received approval for the activation, it may not have
been clear that the activation was involuntarily because soon afterward it was
made known to them that it was not to happen again. M&RA officials stated that,
since then, they have had to submit each request for IRR activation to the
Assistant Secretary of the Navy (M&RA) for approval.

Because of the lack of standard operating procedures for deployments in support
of combatant commanders’ warfighting missions and the lack of full and timely
implementation of the mobilization management plan, the Commander, I MEF
made a decision that I MEF battalions would not deploy with less than 90 percent
of their T/O. The CMC then issued planning guidance in November 2002 that
stated battalions deploying in support of OIF would deploy at 90 percent, or as
close to 100 percent, of their T/O as possible. The guidance did not definitively
identify deployment personnel staffing levels and led to confusion as to what
personnel staffing levels M&RA manpower managers were trying to reach. In
addition, the Plan used to reinforce the active duty force when preparing for
deployment does not provide deployment personnel staffing levels.

Management Control Plan. Management controls include the plan of
organization, methods, and procedures adopted by management to ensure that the
organization’s goals will be met. Although M&RA had policies and procedures
addressing personnel assignments, as of March 2004, M&RA did not have a
formal management control plan that identified the management of personnel in
deploying units as an assessable unit. The formal management control program
includes a management control plan identifying assessable units, progress toward
accomplishing program requirements, the method of monitoring and evaluating,
and dates that evaluations were completed and ensures that programs and
operations are proceeding with integrity and in compliance with applicable laws
and regulations. M&RA officials could not provide evidence of documented
management control evaluations.



                                     10
Management Initiatives
    Personnel Changes. M&RA officials stated that they took several actions to
    increase the personnel staffing levels of I MEF battalions preparing for
    deployment.

    Diverted Resources. To increase personnel staffing levels of deploying
    battalions, M&RA diverted graduating classes from the School of Infantry at
    Camp Lejeune, North Carolina, to I MEF battalions. The Marine Corps has
    two Schools of Infantry, one located on the East Coast and one located on the
    West Coast. M&RA normally assigns students graduating from the School of
    Infantry on the East Coast to II MEF, located at Camp Lejeune, North Carolina,
    and assigns students graduating from the West Coast school to I MEF, located at
    Camp Pendleton, California. M&RA officials stated that all graduating classes
    were diverted to I MEF beginning in November 2002. Although those efforts
    increased entry-grade personnel staffing levels, it did not increase personnel
    staffing levels for more experienced mid-grade personnel, such as infantry
    platoon sergeants and squad leaders.

    Stop Move and Stop Loss. To assist in filling personnel shortages during OIF,
    the CMC released Marine Administrative Message 007/03, “Marine Corps Stop
    Move and Stop Loss Policy,” January 7, 2003. Stop move actions allow the
    Military Departments to stabilize active duty personnel for assignment to theaters
    of operation or other high-priority duties, while stop loss actions allow the
    Military Departments to retain personnel beyond their terms of service. The
    Marine Administrative Message authorized the use of stop loss for all Marine
    Corps personnel effective January 15, 2003, and the immediate stop move for all
    Marine Corps personnel except those with orders to special duty assignments.
    Marines with orders to special duty assignments were allowed to continue to
    execute their orders until the CMC released Marine Administrative Message
    108/03, “Implementation of Stop Move within Special Duty Assignments,”
    March 12, 2003.
    I MEF and 1st Marine Division officials expressed concerns about the delay in
    implementing the stop move and stop loss policy and stated that the policy would
    have been more helpful if implemented sooner. The delay in implementing the
    policy allowed experienced Marines in leadership positions to leave just before
    deployment, leaving a vacancy for an inexperienced Marine to fill.


Conclusion
    Because enlisted warfighting positions remained vacant during deployments,
    Marines faced higher risks during deployments due to increased demands placed
    on limited personnel resources. Because maintaining appropriate personnel
    staffing levels under normal conditions can present M&RA manpower managers
    with challenges, it is even more important to have standard operating procedures
    that provide specific guidance to help battalions reach optimal personnel staffing



                                        11
    levels when deploying in support of combatant commanders’ warfighting
    missions.

    Having standard operating procedures for warfighting missions that address
    staffing issues similar to those faced by battalions participating in the Marine
    Corps Unit Deployment Program would minimize confusion among manpower
    managers at all levels. Infantry battalions participating in the Marine Corps Unit
    Deployment Program are required to submit a deployment status report on
    the 28th of each month to M&RA. The report is used to identify staffing
    shortages within a deployment-designated unit. M&RA, however, does not
    require non-infantry battalions to submit deployment status reports. The level of
    detail found in the Unit Deployment Program standard operating procedures
    should be required not only for regularly scheduled deployments, but also for
    unscheduled deployments.

    A formal management control plan, which identifies the number of scheduled and
    accomplished management control evaluations, assessable units, progress toward
    accomplishment of annual program requirements, the method of monitoring and
    evaluation, and the date the evaluation was completed, will help ensure that
    programs and operations are discharged with integrity and in compliance with
    applicable laws and regulations.


Management Comments on the Finding and Audit Response
    A summary of management comments on the finding and our audit response is in
    Appendix B. Management comments on the recommendations are discussed in
    the following section. See the Management Comments section of this report for
    the complete text of the comments.


Recommendations, Management Comments, and Audit
  Response
    1. We recommend that the Deputy Commandant of the Marine Corps for
    Manpower and Reserve Affairs:

           a. Develop and implement standard operating procedures for units
    deploying in support of combatant commanders’ warfighting missions. The
    standard operating procedures should address, at a minimum, deployment
    personnel staffing levels, special duty assignments, taskings, and contingency
    coded billets.

            Management Comments. The Director, Manpower Personnel Plans and
    Policies Division in the Office of the Deputy Commandant of the Marine Corps
    for Manpower and Reserve Affairs nonconcurred, stating that the standard
    operating procedures were successfully followed to the extent possible under
    DoD guidance and Joint Staff procedures.



                                        12
         Audit Response. The comments are nonresponsive. Although the
Director stated that standard operating procedures were successfully followed to
the extent possible, he did not provide us with standard operating procedures that
address manpower issues for deployment in support of combatant commanders’
warfighting missions. As a result, we were unable to determine whether the
standard operating procedures were successfully followed as stated in the
comments. It is our opinion that standard operating procedures need to, at a
minimum, address special duty assignments, taskings, and contingency coded
billets and need to establish a standard deployment personnel staffing level. Such
standard operating procedures would reduce confusion concerning staffing levels
for deploying battalions, improve battalion cohesion, and improve battalion
readiness levels. We request that the Director reconsider his position and provide
additional comments in response to the final report.

      b. Develop and implement a formal management control plan for
planning, directing, coordinating, and supervising active forces.

        Management Comments. The Director nonconcurred, stating that the
Marine Corps has and follows a formal management control plan. The Director
also stated that the specifics of Marine Corps Order 5200.24C, “Marine Corps
Internal Management Control Program,” are being reviewed and, if appropriate,
changes will be made to the Marine Corps Order.

         Audit Response. The comments are nonresponsive. We made repeated
attempts to obtain the formal management control plan from M&RA. As of
March 2004, M&RA officials could not provide evidence of documented
management control evaluations. DoD Instruction 5010.40, “Management
Control (MC) Program Procedures,” requires the Director to establish a
documented evaluation of the management controls of an assessable unit
regardless of changes made to Marine Corps Order 5200.24C. We request that
the Director reconsider his position and provide additional comments in response
to the final report.

2. We recommend that the Deputy Commandant of the Marine Corps for
Plans, Policies, and Operations modify the current mobilization plan to
include additional procedures, other than activating the Individual Ready
Reserve, for increasing personnel staffing levels when deploying in support of
combatant commanders’ warfighting missions.

Management Comments. The Deputy Commandant of the Marine Corps for
Plans, Policies, and Operations did not provide comments on a draft of this report.
The Director, Manpower Personnel Plans and Policies Division nonconcurred,
stating that the Marine Corps mobilization plan is being revised and includes
multiple options and procedures for meeting required staffing levels.

Audit Response. The comments are responsive. We request that the Director
provide our office with a copy of the revised mobilization plan when it is issued.




                                    13
Appendix A. Scope and Methodology
   We reviewed the processes and procedures the Marine Corps uses in the
   assignment of personnel. We met and interviewed officials from:

          •   the Office of the Deputy Commandant of the Marine Corps for
              Manpower and Reserve Affairs,

                 − Manpower Management Officer Assignments,

                 − Manpower Management Enlisted Assignments,

                 − Manpower Plans and Policy Division;

          •   Marine Corps Combat Development Command, Total Force Structure
              Division;

          •   the Office of the Deputy Commandant of the Marine Corps for Plans,
              Policies, and Operations;

          •   MARCENT;

          •   I MEF and subordinate battalions; and

          •   II MEF and subordinate battalions.

   We reviewed applicable regulations, policies, procedures, and management plans,
   dated August 1954 through November 2003, related to the assignment process
   and mobilization of the Marine Corps. We interviewed officials at the
   headquarters level to determine the Marine Corps assignment process. We further
   interviewed officials at I MEF and subordinate battalions at Camp Pendleton,
   California, and II MEF and subordinate battalions at Camp Lejeune, North
   Carolina, to determine the process used to identify personnel operating strengths
   and shortages and the method used to request personnel for identified shortages
   during deployments.

   Our audit focused on the review of I MEF battalions that had deployed in support
   of OIF. Specifically, we determined whether those battalions deployed with
   vacant enlisted warfighting positions. We requested, obtained, and analyzed
   deployment status reports, other personnel staffing documents, memorandums,
   and T/Os to determine personnel staffing levels. Those documents were dated
   from July 2002 through January 2003.

   We performed this audit from July 2003 through April 2004 in accordance with
   generally accepted government auditing standards. We limited our scope to the
   Marine Corps due to resource constraints.

   Use of Computer-Processed Data. We did not use computer-processed data to
   perform this audit.



                                      14
    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in DoD. This report provides coverage of
    the Strategic Human Capital Management high-risk area.


Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. We reviewed
    M&RA standard operating procedures for enlisted military personnel
    assignments. Specifically, we determined whether management policies and
    procedures were established to manage personnel for deploying battalions.

    Adequacy of Management Controls. We identified a material management
    control weakness for M&RA, as defined by DoD Instruction 5010.40. M&RA
    management controls for the management of personnel in deploying battalions
    were not adequate to ensure that battalions achieve optimal personnel staffing
    levels. The recommendations if implemented, will correct the identified
    weakness and would result in optimal personnel staffing levels for deploying
    battalions, lowering the demands and risks faced by all Marines. A copy of the
    report will be provided to the senior official responsible for management controls
    in M&RA.

    Adequacy of Management’s Self-Evaluation. M&RA officials had not
    developed a formal management control plan and, therefore, did not identify
    management of personnel in deploying units as an assessable unit and did not
    identify or report the material management control weakness identified by the
    audit.


Prior Coverage
    No prior coverage has been conducted on management of Marine Corps personnel
    assignments during the last 5 years.




                                        15
Appendix B. Management Comments on the
            Finding and Audit Response
   Marine Corps Comments. The Director, Manpower Personnel Plans and
   Policies Division in the Office of the Deputy Commandant of the Marine Corps
   for Manpower and Reserve Affairs disagreed with the information we used to
   assess staffing levels and stated that manpower managers use monitor trips to
   assess staffing levels, not deployment status reports. The Director stated that we
   should have assessed staffing levels as of the time of deployment and execution,
   March 23, 2003, not as of December 2002, because battalions continued to
   receive personnel after they deployed. The Director added that CMC guidance
   sets the staffing goal, which was not 95 percent as stated in our report. The
   Director also stated that we should have considered the detached portions of
   battalions in our assessment of staffing levels and that each battalion had
   subordinate units detached or deployed elsewhere.

   The Director disagreed with the report’s information, approach, and conclusions
   with respect to key personnel. In regard to special duty assignments, the Director
   stated that 325 orders were canceled and that I MEF lost only 6 Marines to special
   duty assignments. In regard to contingency coded billets and individual
   augmentee taskings, the Director stated that I MEF received 182 individual
   augmentees, which brought I MEF’s overall staffing level to over 100 percent of
   its T/O.

   The Director stated that the Marine Corps has worked to minimize the operational
   impact that individual augmentee taskings have on units; however, the Marine
   Corps’ requirement to fill those billets has not been eased. The Director stated
   that the Marine Corps continues to receive taskings for personnel to fill joint billet
   requirements with individual augmentees. He added that the lack of validation
   and prioritization of those requirements by the Joint Staff contributed to the
   difficulties the Marine Corps faced in filling requirements. The Director noted
   that the Marine Corps provided augmentees for 777 joint billets during OIF.
   The Director disagreed with our decision to not include in the report I MEF’s
   overall staffing level from January to April 2003. The Director stated that at the
   time I MEF and its subordinate units executed their mission in March 2003,
   I MEF was at 95 percent of its T/O in the aggregate and at more than 100 percent
   of its T/O with individual augmentation.

   The Director also disagreed with the breadth of our analysis, stating that the
   staffing of I MEF’s personnel requirements in support of OIF must be placed in
   the proper context of all Marine Corps’ operational requirements and the
   guidance to meet those requirements. The Director stated that although I MEF
   provided the main Marine Corps effort in support of OIF, consideration should
   have been given to II MEF and III MEF; MARFORPAC; Marine Corps Forces,
   Atlantic; and the Marine Corps Reserve.

   The Director stated that the report should have addressed the additional constraint
   imposed by DoD policy against mobilization of the IRR, pointing out that IRR


                                        16
mobilization is part of the Marine Corps mobilization plan. He stated that if the
IRR mobilization had been undertaken, there would have been no personnel
shortfalls or staffing pressures as discussed in the report.

The Director also disagreed with the report’s conclusion and stated that the report
is flawed in its approach and information.

Audit Response. M&RA officials provided us results of their January 2003
monitor trips, which showed staffing levels below 100 percent of T/O at the time
of deployment or just prior. Specifically, three infantry battalions, a light
armored reconnaissance battalion, and an artillery battalion reported personnel
staffing levels of 90 percent, 79 percent, 73 percent, 84 percent, and 87 percent,
respectively. As stated in the report, although M&RA uses monitor trips to
determine staffing levels, monitor trips do not provide manpower managers at
M&RA with critical non-deployable personnel information.

As reflected in the Director’s comments, March and April 2003 monitor trips still
reported staffing levels below 100 percent of T/O. In addition, the April 2003
monitor trips reflect that two of the three infantry battalions were below the
95 percent staffing goal as established by Marine Corps Order 5320.12,
“Precedence Levels for Manning and Staffing,” May 23, 2001. The staffing
levels presented in the report also reflect the staffing level of the entire battalion,
regardless of whether or not portions of that battalion were deployed elsewhere.
In addition, we believe that optimal personnel staffing levels for deploying
battalions should be reached prior to deployment to allow those battalions the
maximum time possible to properly train new personnel and to build unit
cohesion.

M&RA officials provided us with information that conflicted with the
information we obtained during our visit with 1st Marine Division personnel, who
specifically stated that 38 key leaders were lost to special duty assignments. In
addition, the Director stated that I MEF received 182 augmentees, which brought
I MEF’s overall staffing level to over 100 percent of T/O in the aggregate;
however, we did not verify or report on staffing levels in the aggregate because
we believe that the staffing levels of individual battalions more accurately reflect
personnel staffing. In regard to I MEF’s 453 contingency coded billets, we were
repeatedly told by I MEF and M&RA officials that contingency coded billets
were not approved to be filled.

While we acknowledge that the Marine Corps has to fill joint billet requirements
with individual augmentees, the audit’s scope did not include evaluating the Joint
Staff’s validation and prioritization of those requirements. The report does
address the additional constraint imposed by DoD policy against IRR
mobilization.




                                      17
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Under Secretary of Defense for Personnel and Readiness

Joint Staff
Director, Joint Staff

Department of the Navy
Commandant of the Marine Corps
  Deputy Commandant of the Marine Corps for Manpower and Reserve Affairs
      Director, Manpower Personnel Plans and Policies Division
  Deputy Commandant of the Marine Corps for Plans, Policies, and Operations
  Commanding General, Marine Corps Combat Development Command
  Commander, U.S. Marine Corps Forces, Central Command
  Commander, I Marine Expeditionary Force
  Commander, 1st Marine Division
  Commander, 1st Force Service Support Group
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Combatant Command
Inspector General, U.S. Joint Forces Command

Non-Defense Federal Organization
Office of Management and Budget




                                          18
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        19
Marine Corps Manpower Personnel Plans and
Policies Division Comments




                    21
22
23
24
25
26
27
Team Members
The Office of the Deputy Inspector General for Auditing of the Department of
Defense, Readiness and Logistics Support prepared this report. Personnel of the
Office of the Inspector General of the Department of Defense who contributed to
the report are listed below.

Shelton R. Young
Donald A. Bloomer
Richard B. Vasquez
Sandra L. Fissel
Lieutenant Colonel Shannon Jones, U.S. Army
Velma E. White
Andrea L. Hill
Elizabeth N. Shifflett
